     U.S. DEPARTMENT OF COMMERCE
               Office of Inspector General
  

 


                                   National
                        Telecommunications
                                        and
                  Information Administration
 


     NTIA Must Continue to Improve its
                Program Management and
                          Pre-Award Process
      for its Broadband Grants Program
                            Final Report No. ARR-19842-1
                                               April 2010
 

 

 

 

 

 

 

 

                            Office of Audit and Evaluation
                                                       UNITED STATES DEPARTMENT OF COMMERCE
                                                       The Inspector General
                                                       Washington, D.C. 20230




APRIL 8, 2010

MEMORANDUM FOR:               Lawrence E. Strickling
                              Assistant Secretary for
                              Communications and Information


                               '('~1·~~--
FROM:                         Todd 1. Zinser


SUBJECT:                      NTIA Must Continue to Improve its Proaram Ivlanagement and
                              Pre-Award Processesfor the Broadband Technology
                              Opportunities Program
                              Final Report No. ARR-19842



We are providing you with our final report on our review of the National Telecommunications
and Information Administration's (NTIA) efforts to implement an effective program office and a
fair and effective pre-award process for the Broadband Technology Opportunities Program
(BTOP).

We discussed our find ings wi th you on January 6, 2010 and provided you wi th a draft report on
March 12. We found that NTIA needs to take prompt actions to improve the management and
pre-award processes to assure that grant awards are made by the statutory deadline of September
30,2010. While NTIA has taken a number of steps to address these issues, including obtaining
additional personnel to support the BTOP team, strengthening the documentation supporting its
decision making, and implementing system enhancements to facilitate application processing
additional effol1s are needed.

Your Apri I 1, 2010, response to our draft report notes that NTIA is taki ng appropriate action and
has already begun to address recommendations in the report. We summarize the response in our
report and have included it in its entirety as appendix B.

Please provide us with an action plan that responds to all of the report recommendations within
60 days from the date of this memorandum. Please also accept our thanks to the BTOP team for
the courtesies shown to us during our fieldwork. If you have any questions, please contact Ann
Eilers at (202) 482-4328 or Clu'is Rose at (202) 482-5558.
                                      Report In Brie
                                                Brieff
                                               U.S. Department of Commerce Ofﬁce of Inspector General
                                                                     April 2010



Why We Did this Review                American Recovery and Reinvestment Act
The Broadband Technology Op-
portunities Program (BTOP) is         NTIA Must Continue to Improve its Program Management
the largest grant program that the
National Telecommunications and       and Pre-Award Processes for BTOP (ARR-19842)
Information Administration (NTIA)
has managed to date. With BTOP,
NTIA has had to confront a number     What We Found
of challenges, including stafﬁng a
program ofﬁce, developing rules       NTIA is entering its second round of funding broadband grant awards. While NTIA has made
and regulations, coordinating de-     signiﬁcant strides in implementing BTOP (developing a program ofﬁce, issuing its ﬁrst Notice
velopment activities with other de-   of Funds Availability, reviewing more than 1,800 submitted applications, and announcing its
partments and agencies, awarding
                                      initial awards) it is essential that NTIA apply the lessons it learned from the ﬁrst funding round
grants, and performing effective
oversight of activities – all while   to promptly address any problems that may arise. We found that
limiting expenditures to 3 percent    1. 	 BTOP’s size and complexity have presented NTIA with signiﬁcant challenges. NTIA’s pro-
of the program appropriation.              gram stafﬁng levels appear to be insufﬁcient to simultaneously perform the necessary ﬁrst-
                                           and second-round award activities. The ofﬁce must rely heavily on a few key individuals
We have been proactive in our
                                           and personnel from other agencies to carry out the program’s operations.
oversight of BTOP, including
providing guidance to NTIA on         2. 	 NTIA’s inconsistent documentation of important information such as policies, procedures,
the importance of establishing             staff roles, and key management decisions could lead to inefﬁciency and miscommunica-
appropriate internal controls. As          tion.
part of our oversight, we initiated
this review of BTOP in September      3.   The
                                           	   ﬁrst round of BTOP grant application processing exposed several problems with the
2009.                                      online grant intake system, which affected efﬁciency and users’ experiences.
Background                            4. 	 A shortage of volunteer peer reviewers meant that application review for the ﬁrst round was
On February 17, 2009, the President     delayed. As NTIA manages the second-round process and handles post-award activities for
signed the American Recovery and        ﬁrst-round grant recipients, it must be careful to obtain enough reviewers for the workload.
Reinvestment Act of 2009 into law. 5. 	 NTIA will need to closely monitor grantees during the post-award phase to ensure they are
The Recovery Act gives $7.2 bil-
                                        in compliance with the National Environmental Policy Act (NEPA).
lion, which must be awarded before
September 30, 2010, to NTIA and
the Department of Agriculture’s
Rural Utilities Service to expand
                                    What We Recommended
broadband services in the United
States.                             We made several recommendations to NTIA with the intention of improving internal controls,
                                      promoting transparency, and increasing efﬁciency. We presented our observations and sugges-
Of the $7.2 billion to be awarded,    tions to NTIA in January, and they have begun to put many of our recommendations in place.
$4.7 billion was provided to NTIA
to establish BTOP, which is a com-    We recommended that NTIA
petitive grant program intended to    • 	 create a stafﬁng plan that outlines the necessary resources to manage BTOP, and that makes
provide funds for deploying broad-        provisions to adjust to the loss of key positions;
band infrastructure in unserved and
underserved areas of the United       • 	 develop and implement policies and procedures that articulate key roles, responsibilities,
States, enhance broadband capacity        and requirements for documentation;
at public computer centers, improve
                                      • 	 have its in-house counsel document any program issues that arise and receive documented
access to broadband services for
public safety agencies, and promote       opinions from the Department of Commerce’s Ofﬁce of General Counsel;
sustainable broadband adoption        • 	 supplement the existing pool of reviewers to address unforeseen delays or other impacts
projects. The ﬁrst round of grant         that could affect the application review timeline; and
awards is to be completed in April
2010; the second and ﬁnal round has   • 	 continue to develop monitoring procedures to identify, track, and assist recipients at risk of
already begun.                            experiencing delays in completing post-award NEPA requirements.
U.S. Department of Commerce                                                                                     Final Report ARR-19842-1 

Office of Inspector General                                                                                                    April 2010 



                                                                  Contents


Introduction..................................................................................................................................... 1 

Findings and Recommendations ..................................................................................................... 4 

   I.	     BTOP’s Size and Complexity Present NTIA with Significant Challenges ........................4 

   II.	 NTIA Does Not Consistently Document Policies, Procedures, Staff Roles, and Key 

        Management Decisions .....................................................................................................6 

   III.	 NTIA Must Overcome the System Challenges It Faced in the First Round of Application 

         Intake to Effectively Manage the Second Round...............................................................9 

   IV.	 NTIA is Taking Steps to Avoid the Same Application Review Problems from the First 

        Round; However, Challenges Could Continue ................................................................11 

   V.	 Pre-award National Environmental Policy Act Analysis Facilitates Timely BTOP Project 

       Completion; However, Close Post-Award Monitoring by NTIA Will Be Needed ..........12 

Summary of Agency Comments and OIG Response .................................................................... 13 

Glossary ........................................................................................................................................ 14 

Appendix A: Objectives, Scope, and Methodology...................................................................... 16 

Appendix B: Full Text of Agency’s Response ............................................................................. 17 

U.S. Department of Commerce                                                     Final Report ARR-19842-1 

Office of Inspector General                                                                    April 2010 



                                                Introduction
On February 17, 2009, the President signed the American Recovery and Reinvestment Act of
2009 into law. The Recovery Act gives the Department of Commerce’s National
Telecommunications and Information Administration (NTIA) and the Department of
Agriculture's Rural Utilities Service (RUS) $7.2 billion, which must be awarded before
September 30, 2010, to expand broadband services in the United States.
Of the $7.2 billion to be awarded, $4.7 billion was provided to NTIA to establish the Broadband
Technology Opportunities Program (BTOP), which is a competitive grant program intended to
provide funds for deploying broadband infrastructure in unserved and underserved areas of the
United States, enhance broadband capacity at public computer centers, improve access to
broadband services for public safety agencies, and promote sustainable broadband adoption
projects. The remaining $2.5 billion was provided to the RUS’ Broadband Initiatives Program
(BIP) to issue loans, grants, and loan/grant combinations to facilitate broadband deployment in
rural areas. Figure 1 provides the breakdown of the allocated BTOP Recovery Act funds.


                   Figure 1. Breakdown of BTOP appropriations
                                                 0I60vers1cht
                                                    $1OM
                    Public Computl,.. centers
                    No less .... SZOO M

       Sllslalnable Broadband Adopdon
       Saslalnable            Adopllon                                     Mnlnlsntlve Expenses
       No less than $250 M                                                         $141M




Funding for public computing centers (PCCs), sustainable broadband adoption (SBA) programs, OIG
oversight, and broadband mapping are required by statute. Funding for infrastructure programs is flexible,
with some of the $3.75 billion potentially going towards PCC and SBA programs. Also, broadband
mapping funds are flexible, with some of the $350 million going to infrastructure, PCC, or SBA projects.




                                                     1

U.S. Department of Commerce                                                    Final Report ARR-19842-1 

Office of Inspector General                                                                   April 2010 



BTOP Program Implementation Process
BTOP is the largest grant program that NTIA has managed. With BTOP, NTIA has had to
confront a number of challenges, including staffing a program office, developing grant program
rules and regulations, coordinating development activities with other departments and agencies
(such as the Department of Agriculture and the Federal Communications Commission), awarding
grants, and performing effective oversight of activities – while limiting expenditures to 3 percent
of the program appropriation ($141 million). NTIA is taking the following steps to implement
BTOP:


                                                                         4. Completing 
       1. Creating the                              3. Signing the    first‐round awards        5. Completing 
                              2. Releasing the 
       BTOP program                                 management             and issuing          second‐round 
                                 first NOFA
            office                                support contract       second‐round           award process
                                                                              NOFA




   1.	 Creating the BTOP Program Office and Initial Planning (Spring 2009) – NTIA formed a
       program office with over 40 staff members to support BTOP and provided them with
       grants training. Before establishing program rules, the agency held seven joint public
       meetings with RUS and issued a request for information that resulted in more than 1,600
       comments from the public. The comments were considered in the development of the
       first Notice of Funds Availability (NOFA), which established program rules and
       availability of grant funds. NTIA also entered into several memorandums of
       understanding with various federal agencies to provide program support.
   2.	 Releasing the First NOFA (July 2009) and Continuing Program Planning – RUS and
       NTIA issued a joint NOFA to describe the availability of BIP and BTOP funds and set
       forth the application requirements for those entities wishing to participate in one or more
       of the Recovery Act programs. Up to $1.6 billion in BTOP funds were available in the
       first grant round: $1.4 billion set aside for infrastructure, public computer centers, and
       sustainable broadband adoption projects and $200 million to augment these funds or to be
       used in subsequent NOFAs. In support of the NOFA, RUS and NTIA held 10 workshops
       around the country to explain the program rules and application process for the first
       round of applicants. Approximately 1,800 applications were received by NTIA for the
       first round of funding. Also, NTIA developed and documented pre-award processes and
       procedures for vetting, training, and assigning peer reviewers and performing due-
       diligence reviews of applications receiving sufficient peer review scores.
   3.	 Signing the Management Support Contract (August 2009) – NTIA entered into an
       approximately $99 million contract with Booz Allen Hamilton (BAH) to provide
       program administration, application review, communications and outreach, grants
       administration, post-award technical assistance, and management support. The first-year
       contract of approximately $30 million was modified in November 2009 through the
       exercise of a $5 million option to include application review support by adjusting the mix
       of labor hours provided under the contract. During peak times, the contract provides
       approximately 200 additional staff to supplement NTIA’s existing program office.


                                                  2

U.S. Department of Commerce                                               Final Report ARR-19842-1 

Office of Inspector General                                                              April 2010 



    4.	 Completing First-round Award Process and Issuing Second-round NOFA (November
        2009 – February 2010) – After volunteers and BAH personnel completed a peer review
        of the first-round applications, NTIA performed due diligence of those with scores that
        met determined thresholds. NTIA then announced the first wave of 10 awards in
        December 2009. NTIA has continued to award grants, and plans to complete announcing
        all first-round grants by the middle of April 2010. Concurrent with the first-round award
        process, NTIA issued its second-round NOFA in January 2010. The NOFA makes
        available approximately $2.6 billion of program-level funding, with approximately $2.35
        billion for Comprehensive Community Infrastructure projects, $150 million for PCC
        projects, and $100 million for SBA projects.
       There were several significant changes to the second-round NOFA, including redefined
       selection criteria and revised application processes. Many of these changes were made to
       assure timely grant awards because NTIA had anticipated receiving two to three times the
       number of applications in the second round. Since NTIA will simultaneously be
       performing post-award activities for first-round recipients while reviewing second-round
       applications, there will continue to be significant pressure on the process. For its second
       round of awards, NTIA and RUS conducted another series of workshops to assist
       applicants with the process.
    5.	 Completing Second-round Award Process (March–September 2010) – All second-round
        applications for PCC and SBA projects had to have been submitted electronically for
        consideration by March 15, 2010. NTIA extended the application window for
        Comprehensive Community Infrastructure projects until March 26, 2010. All awards
        must be made by September 30, 2010, as required by statute in Division B, Title VI, of
        the Recovery Act. As such, NTIA will have fewer than 7 months to review applications
        and make awards.
We have been proactive in our oversight of BTOP, including providing guidance to NTIA on the
importance of establishing appropriate internal controls. Also, we participated in the workshops
supporting the first and second NOFAs by briefing potential applicants about the Recovery Act’s
accountability and transparency requirements. As part of our oversight, we initiated this review
of BTOP in September 2009. Appendix A of this report outlines the objectives, scope, and
methodology we followed for the review.
Throughout our review we worked with NTIA program staff and shared our concerns to enable
them to correct issues as they emerged. NTIA staff were responsive to these communications and
made numerous modifications to program operations throughout our review, thus improving
operational controls and efficiency. The findings included in this report were discussed with
NTIA’s Assistant Secretary for communications and information on January 6, 2010. NTIA has
begun to address these findings by obtaining additional personnel to support the BTOP team,
strengthening the documentation supporting its decision making, and implementing system
enhancements to facilitate application processing.




 


                                                3

     U.S. Department of Commerce                                                 Final Report ARR-19842-1 

     Office of Inspector General                                                                April 2010 



                                    Findings and Recommendations
     With the issuance of its January 15, 2010, NOFA, NTIA is entering its second round of funding
     broadband grant awards. While NTIA has made significant strides in implementing BTOP
     (developing a program office; issuing its first NOFA; developing and documenting processes for
     vetting, training, and assigning peer reviewers and performing due-diligence reviews of
     applications receiving sufficient peer review scores; performing outreach activities with
     stakeholders; reviewing approximately 1,800 submitted applications; and announcing its first set
     of awards) it is essential that NTIA continue its efforts to promptly address the problems it
     encountered in the first BTOP funding round. Given the delays to date and the relatively low
     dollar volume of grants awarded thus far, NTIA is at risk of not meeting the Recovery Act’s
     statutory deadline of September 30, 2010, for the issuance of all BTOP awards.
     Difficulties encountered in the first round delayed NTIA’s grant award announcements. As of
     March 15, 2010, NTIA had announced approximately $961million of $1.6 billion in grant
     awards—about 60 percent of the available first-round funding. NTIA plans to conclude the first
     round of funding in April 2010, almost 4 months later than its original estimate. NTIA now has
     about 6 months to complete the issuance of about 40 percent of its $1.6 billion in available funds
     from the first round and to receive, evaluate, and award approximately $2.6 billion more from
     the second round.


I.      BTOP’s Size and Complexity Present NTIA with Significant Challenges

     To meets its deadline, NTIA must ensure that it has sufficient staffing resources to complete the
     first round of broadband awards, begin post-award monitoring of first-round recipients, and
     conduct the second-round review of broadband grants.
        A. BTOP Is the First Grant Program of This Size NTIA Has Managed
     NTIA has not previously managed a grant program of BTOP’s size and complexity. Prior
     programs conducted under NTIA vary significantly from BTOP, which—primarily due to its size
     and resource requirements—requires greater operational coordination. BTOP also involves
     awards to for-profit companies in addition to states, local governments, federal tribal entities, and
     non-profits. NTIA has entered into several memorandums of understanding with two Commerce
     agencies and the Federal Communications Commission for grant processing, management
     support, and technical assistance, as well as contracting with BAH for administrative and
     management support in the grant award process.
     While the additional resources procured under these agreements help NTIA manage pre-award
     operations, to date the program office has not completed a comprehensive analysis to ascertain
     whether its structure and staffing are the most effective for managing BTOP. An analysis has
     been delayed, partly because of the program office’s need to quickly establish policy and
     operations.




                                                      4

U.S. Department of Commerce                                                                 Final Report ARR-19842-1 

Office of Inspector General                                                                                April 2010 



       B. BTOP’s Program Office Is Small and Relies Heavily on Other Agency Personnel
Because BTOP is a new and unique program, NTIA has had to hire most of its personnel from
outside the agency. The program office has approximately 40 positions, yet as of November
2009 it was only 80 percent staffed. By January 2010 most open positions had been filled, but
they appear to be insufficient to simultaneously perform the necessary first- and second-round
award activities. In addition, NTIA must oversee the work of approximately 200 BAH
professionals performing important tasks related to the program.
NTIA must also provide effective oversight and close coordination of other government
organizations that support BTOP. These include:
        •	 the National Technical Information Service (NTIS), which provides information 

           technology support for processing applications; 

        •	 the National Oceanic and Atmospheric Administration and National Institute of 

           Standards and Technology, which provide grants management; and 

        •	 the Federal Communications Commission, which provides technical assistance to
           develop a national broadband map.
NTIA also coordinates with BIP, which is operated by RUS. During our review, NTIA continued
to augment BTOP’s program office with new staff and is working on obtaining staff temporarily
detailed from other Commerce units. It has also strengthened its internal controls through regular
meetings with the National Oceanic and Atmospheric Administration and National Institute of
Standards and Technology grant offices to better coordinate operations, delegate select
operations, and improve the pre-award process.
       C. BTOP’s Program Office Places Significant Responsibility on a Few Key Individuals
The Government Accountability Office’s Standards for Internal Control in the Federal
Government states that key duties and responsibilities need to be divided or segregated to reduce
the risk of error and that as part of its human capital planning, management should also consider
how best to retain valuable employees, plan for eventual succession, and ensure continuity of
needed skills and abilities.1
NTIA, however, currently relies heavily on a few key individuals, putting a strain on key staff
members. BTOP will be at risk if these staff members leave the program or are temporarily
unable to perform their duties. For example:
       •	 the Contracting Officer’s Technical Representative for the contract with BAH also serves
          as a team leader of five staff members and maintains responsibilities for another NTIA
          grants program;
       •	 the head of the Infrastructure Division is also the principal manager of BTOP and is
          accountable for programmatic, personnel, and policy decisions; and
       •	 the head of the Compliance and Reporting Division, who manages administrative
          functions and compliance issues for the program, is also responsible for approving the
          BTOP director’s grant award recommendations.

                                                            
1
    GAO, November 1999. Standards for Internal Control in the Federal Government, GAO/AIMD-00-21.3.1, pp. 13-14.


                                                               5

U.S. Department of Commerce                                                               Final Report ARR-19842-1 

Office of Inspector General                                                                              April 2010 



Recommendations
We recommend NTIA develop a staffing plan that outlines the resources it will need to
implement the program and that makes provisions to adjust to the loss of key positions. This will
include identifying key positions, necessary staffing and allocation of responsibilities, a
succession plan, and resources to support the staff.


II.	 NTIA Does Not Consistently Document Policies, Procedures, Staff Roles, and Key
     Management Decisions
The Government Accountability Office’s Standards for Internal Control in the Federal
Government states that a good internal control environment requires an organizational structure
with clearly defined key areas of authority and responsibility and appropriate lines of reporting. 2
Furthermore, internal controls should be documented and “appear in management directives,
administrative policies, or operating manuals.” 3
       A. Policies and Procedures Are Not Adequately Documented
NTIA developed and documented pre-award processes and procedures for vetting, training, and
assigning peer reviewers and performing due-diligence reviews of applications receiving
sufficient peer review scores. However, NTIA has not documented its policies and procedures
establishing clear areas of authority and responsibility or detailing appropriate lines of reporting
and resolving issues that arise during the due-diligence process. The burden placed on the
program’s limited staff is even heavier when roles, responsibilities, policies, or procedures are
not adequately documented. Inefficiencies arise when program personnel have questions relating
to steps in the due-diligence process and do not have clear direction on whom to consult in order
to receive accurate and timely responses.
Maintaining adequate documentation is essential not only for guiding staff in the completion of
their tasks, but in establishing accountability and transparency within the program. Also,
adequately documented policies and procedures on roles, responsibilities, and lines of reporting
facilitate a smoother transition of work in the event key staff members depart the program or are
unable to fulfill their responsibilities.
During our evaluation, we asked NTIA employees whether policies and procedures had been
documented in directives and manuals; we were told no such directives were available. In
October and December 2009 we expressed concern about the lack of clear procedures, but it was
January 2010 before NTIA announced to BTOP staff that documented procedures and policies
were being developed. As such, NTIA has gone more than a year into the program without fully
documented procedures.
We also found that NTIA did not document delegations of authority upon the recusal of a
member of senior staff. At our request, the documentation was completed after the change in
staff took place. Promptly recording procedures and lines of authority will improve efficiency in
processing applications, since all employees would have a clear understanding of authority in
any circumstance, as well as accountability and transparency.

                                                            
2
 GAO, November 1999. Standards for Internal Control in the Federal Government, GAO/AIMD-00-21.3.1, p. 9. 

3
 GAO, Standards for Internal Control in the Federal Government, p. 15. 



                                                               6

U.S. Department of Commerce                                                                  Final Report ARR-19842-1 

Office of Inspector General                                                                                 April 2010 



       B. NTIA Has Established a Rigorous Review Process but Needs to Improve Maintenance
          of Award Documentation
GAO’s Standards for Internal Control in the Federal Government states, “…internal control and
all transactions and other significant events need to be clearly documented, and the
documentation should be readily available for examination.” 4 Our review of NTIA’s
documentation to support award recommendations found that documentation was not readily
compiled and available for review. We originally requested 10 documentation packages
supporting the first of seven waves of applications that were recommended for award in mid-
November 2009. However, we changed our request to one grant file after being told it would be
too difficult for BTOP to provide us with packages supporting all first-round award
recommendations. We received the award documentation for the file in early December but
found that not all supporting documentation was included. Additional documentation to address
our questions was provided in mid-December 2009. Similarly, when we asked to see three
additional files from the first wave and three from the second wave of award recommendations,
we received them over 3 weeks after our request.
Our meetings with BTOP officials revealed that while a rigorous process had been established
for applications that moved from peer review to due diligence, the supporting compilation and
documentation processes were not initially in place; they evolved as steps were completed and
“lessons learned” were incorporated. This process is diagramed below:



                                                                                                    5.  Grant 
            1.  Eligibility                        2.  Peer       3.  Due          4.  
                                                                                                     Officer 
               Review                              Review        Diligence     Negotiation
                                                                                                     Award




Our review of seven first-round files supporting NTIA awards encompassed the documentation
areas included in the table below.
                                                   Application Documentation Reviewed
Peer reviewer scoring documentation
Sufficient evidence of matching funds availability
Applicants’ financial condition and ability to complete project (credit risk/supplier risk)

Ability to meet environmental requirements (National Environmental Policy Act (NEPA) /
National Historic Preservation Act (NHPA)
Accounting system verification
Evaluation of challenges from existing providers


                                                            
4
    GAO, November 1999. Standards for Internal Control l in the Federal Government, GAO/AIMD-00-21.3.1, p. 15.


                                                                      7
U.S. Department of Commerce                                              Final Report ARR-19842-1 

Office of Inspector General                                                             April 2010 



                          Application Documentation Reviewed
Documenting supporting claim that project could not be completed without federal funds
Adequate overbuild analysis
Special award conditions included in the recommendation memo


We had a number of working meetings with NTIA to locate additional documentation and obtain
more clarity on the documentation presented. Through subsequent meetings with NTIA, NIST,
and NOAA, as well as the additional documentation and verbal clarification from NTIA
management on its due diligence process, we concluded that for these files NTIA worked to
establish a consistent process that meets NOFA requirements. However, NTIA management
must continue its efforts to ensure complete documentation is compiled to support awards.
   C. NTIA Did Not Consistently Obtain Legal Opinion Documentation Before Making
      Select Changes to the Program
NTIA made several programmatic decisions prior to receiving a formal legal review and
documenting the review’s results. Our office and an independent audit performed by KPMG
highlighted NTIA’s use of volunteer application reviewers as an area of concern. KPMG
identified the use of unpaid volunteers as a possible Anti-Deficiency Act issue, and NTIA had
not obtained a documented legal opinion on the use of unpaid volunteers before the first round
began. NTIA’s in-house counsel is currently working with Commerce’s Office of General
Counsel (OGC) and the Chief Financial Officer to address this issue.
Also, NTIA obtained a legal opinion from OGC after a contract modification had already been
executed. Therefore, NTIA used reviewers provided by BAH before documenting the contract
modification terms for OGC and obtaining OGC-documented concurrence that this practice was
within the terms and conditions of the contract. However, to support its decision, NTIA obtained
a legal review that had been performed by the Department of Interior (the contracting office)
prior to executing the contract modification.
Obtaining a documented independent legal opinion before taking action on important issues is a
prudent way of doing business, especially with a program as large, complex, and important as
BTOP.


Recommendations
We recommend that NTIA take the following actions:
   1.	 Develop and implement policies and procedures that articulate key roles and
       responsibilities for NTIA program office personnel. As NTIA continues with its
       application due diligence, it needs to ensure that documentation compiled to support
       awards is complete.
   2.	 NTIA’s in-house counsel should document program issues that arise and receive
       documented opinions from OGC on program decisions involving laws and departmental
       policies. Such opinions provide an additional check on program operations and ensure



                                               8

    U.S. Department of Commerce                                                Final Report ARR-19842-1 

    Office of Inspector General                                                               April 2010 



           that sound decision making was followed. It also supports program accountability and
           transparency.

III.	   NTIA Must Overcome the System Challenges It Faced in the First Round of
        Application Intake to Effectively Manage the Second Round

    Intake of grant applications was initially planned through Grants.gov, the federal government’s
    system for identifying and applying for grants. However, with the surge of applications for
    Recovery Act grants, Grants.gov had begun to experience capacity problems. Therefore, NTIA
    filed for a waiver to use a different grant application intake system and upon approval selected a
    commercial off-the-shelf system. This decision was made primarily because NTIS, the agency
    responsible for hosting and supporting BTOP’s information technology environment, had
    worked with the system’s vendor in the past and had some familiarity with its products and
    operations. However, NTIA had little time to complete detailed functional specifications and
    evaluations to ensure that the proposed system would adequately fit its program needs.
        A. The Application Intake System Could Not Handle the Volume of Applications
           Submitted During the First Round
    The first-round application period opened on July 31, 2009, and was scheduled to end
    approximately 2 weeks later, on August 14, 2009. However, as the grant application intake
    system began experiencing problems the deadline was extended to August 20, 2009, for
    electronic applications still pending at close of business on August 14, 2009. A final extension to
    August 24, 2009, was granted for submission of supporting documents.
    As several hundred users completed applications and attempted to upload supporting documents,
    they began to experience significant processing delays due to degradation in server capacity.
    Several attempts were made at correcting the capacity problems—for example, making software
    changes to the application, adding servers to increase capacity, and increasing the efficiency of
    the servers to improve processing time. While these efforts improved the system performance,
    they did not completely resolve the issues.
    The technical issues were exacerbated by help desk support problems. Help desk staff either did
    not have sufficient familiarity with the system to adequately assist users in navigating screens
    and inputting application requirements, or did not have the right level of system access to
    perform basic help desk functions such as unlocking records.
    The capacity issues could not be completely resolved; therefore, NTIA instructed applicants not
    to continue attempting to upload documents online. They instead accepted supporting
    documentation by hand delivery, overnight shipment, or regular mail if postmarked by August
    24, 2009. The problems with the system also led to delays in submission of eligible applications
    for peer/expert reviewer evaluation. This was due in part to the NTIA staff having to match
    supporting paper documentation to electronic applications that had actually been successfully
    submitted online. The first-round application intake phase ended with approximately 2,200
    applications being submitted, with 1,800 being for the BTOP program and approximately 400
    specifically for BIP.




                                                     9

U.S. Department of Commerce                                                Final Report ARR-19842-1 

Office of Inspector General                                                               April 2010 



   B.	 NTIA Must Ensure Adequate Time is Allocated for Coding (Where Applicable) and
       Testing of All Changes to the System and Its Supporting Infrastructure
After the close of the of the first round of applications, NTIA, NTIS, and the vendor identified
potential enhancements to the application intake system and its supporting infrastructure that
would ensure better processing for the second round. In November 2009, NTIS and the vendor
developed a 60-day timeline that included the dates by which system enhancements would be
accepted, coded, and tested. The timeline provided that no additional requests for system
enhancements would be accepted after December 4, which afforded ample time for coding and
testing. Tests of the system enhancements were slated to occur during the first week in January
2010. While a number of changes were requested by NTIA by the December 4 due date,
additional enhancements were still being requested throughout January 2010. Some of the
enhancements were designed to manage user behavior, such as enforcing file size restrictions on
uploaded documents and reducing the amount of required documentation. Other changes to the
server infrastructure were designed to more efficiently convert and process documentation and
increase server capacity by doubling the number of servers. Together these changes constituted a
major system enhancement effort.
As with any major system enhancement project, a significant amount of testing of the changes
was required. In NTIA’s case the actual volume of applications could only be projected, not
definitively determined. Therefore, several full-scale iterations of testing were needed. The
testing required mock application and attachment submissions by multiple simultaneous users;
for each grant type; under various scenarios; and after any major enhancements to the software
or infrastructure. Ample lead time had to be allotted to identify problems, determine the correct
solutions, and conduct retesting. With the second-round application intake date of February 16,
2010, the testing window was greatly reduced, potentially compromising a successful outcome.
We advised NTIA that before the system was made available for application submission, an
implementation readiness assessment needed to be conducted to document the criteria to be met
in order to successfully implement the system.
Because of the short timeframe, we discussed our recommendations with NTIA during our field
work. Our recommendations centered on actions NTIA needed to take to ensure the application
intake system was able to sufficiently handle the expected increase in applications, and to create
a better user experience. Some of the necessary actions we discussed included:
   •	 allowing for sufficient time for testing;
   •	 conducting rigorous stress and load testing using multiple simultaneous logins;
   •	 developing milestones and criteria for success and actively monitoring achievement of
      both;
   •	 ensuring help desk staff were sufficiently trained to appropriately triage and escalate
      problems in a timely and efficient manner; and
   •	 monitoring network devices, appliances, and servers to identify problems before they
      affected the users’ experience.
NTIA was responsive to our feedback and implemented a number of our recommendations. As
of the first week of processing, the system was functioning properly with no reports of capacity



                                                  10

U.S. Department of Commerce                                                                     Final Report ARR-19842-1 

Office of Inspector General                                                                                    April 2010 



or document conversion problems. However, at the close of our field work, the application
process had not yet reached expected peak volumes.5


IV. NTIA is Taking Steps to Avoid the Same Application Review Problems from the First
    Round; However, Challenges Could Continue

For the first round of BTOP awards, NTIA recruited, selected, and trained volunteer reviewers to
assess and score applications to determine which applications should receive due-diligence
examination and potential award. However, NTIA could not adequately forecast peer review
staffing needs for the application review process, primarily due to uncertainty about the projected
number of applications. The personnel shortage was compounded by a lack of qualified
individuals applying to become reviewers, reviewers who dropped out of the process, and the
time it took to successfully review the often very lengthy applications (at times over 1,000
pages). Initially the peer review process was scheduled for completion by mid- to late September
2009, but due to the insufficient number of peer reviewers and short timeframe for them to
complete their assignments, reviews were not finished until December 8, 2009. The situation was
resolved only after NTIA modified its contract with BAH in November 2009 to provide peer
reviewers to score applications, thus allowing them to move to due diligence. In a January 2010
memo, the assistant secretary for communications and information described the delays in the
review process as the primary reason for postponing NTIA’s announcement of its first package
of BTOP awards.
In order to expedite the application process for the second round of BTOP grants, NTIA
requested waivers from the Department that would enable it to adopt a general policy requiring
electronic filing of new BTOP applications and to allow two reviewers, rather than three, to
evaluate each application for the second round. When requesting these waivers, NTIA stated that
it anticipated receiving two to three times more applications for the second round of funding,
which would represent a substantial increase in workload.6 Also, NTIA will be handling post-
award activities for recipients of grant funds from the first round. The Department’s Director of
the Office of Acquisition Management granted both waivers (with conditions), and the second
NOFA reflects these changes.
NTIA has taken steps to address the processing issues that affected the first round, but it will
have to closely monitor peer reviewer operations for the second round to ensure that reviews
progress in a timely manner.

Recommendations
We recommend that NTIA build capacity to increase the reviewers available to supplement the
existing pool, addressing unforeseen delays or other impacts that could affect the application
review timeline.



                                                            
5
    The second-round ended on March 26, 2010, and NTIA received fewer applications than it had estimated.
6
    See footnote 6.


                                                               11

U.S. Department of Commerce                                                                Final Report ARR-19842-1 

Office of Inspector General                                                                               April 2010 



V.	 Pre-award National Environmental Policy Act Analysis Facilitates Timely BTOP
    Project Completion; However, Close Post-Award Monitoring by NTIA Will Be Needed

We issued a flash report in March 2009 on lessons learned for BTOP from the Public Safety
Interoperable Communications program; we referred to the report in our Top Management
Challenges Facing the Department of Commerce. One of the lessons that we highlighted was
that NTIA should promptly complete a programmatic environmental assessment to address
compliance issues for any projects for which necessary environmental activities and permits had
not been completed, so as not to hinder grantees from completing their projects within mandated
time frames.7
Since our flash report was issued, BTOP’s requirements have changed such that an
environmental assessment for the entire program is not needed. Instead, applicants are now
required to submit an environmental questionnaire as part of the original application8 to assess
their NEPA compliance. Additionally, to streamline the process NTIA developed a series of
categorical exclusions that addressed specific BTOP requirements. Finally, NTIA has
implemented a special post-award grant condition on many broadband infrastructure projects that
requires NEPA compliance before construction can begin.
Although the BTOP grantee would have the responsibility for preparing the post-award project-
specific environmental assessment, NTIA is responsible for reviewing the assessment and either
making a finding of No Significant Impact, determining that more information is needed, or
concluding that the information in the project-specific environmental assessment requires an
environmental impact statement.
The NOFAs for both rounds of BTOP applications stipulate that projects be 67 percent complete
within 2 years of grant award and fully complete within 3 years.9 The grantees’ timely
completion of the environmental assessment is required before most broadband infrastructure
projects can proceed to construction and be on schedule for completion within the 3-year grant
period.
 
Recommendations
We recommend that NTIA continue to develop monitoring procedures to be used in the post-
award operations that will help to identify recipients who are at risk of experiencing delays in
completing the post-award NEPA requirements. The procedures should include tracking actions
required by the recipient and NTIA, as well as steps to be taken if NEPA compliance is not
obtained in a timely manner.




                                                            
7
   U.S. Department of Commerce Office of Inspector General, March 2009. NTIA Should Apply Lessons Learned from Public 

Safety interoperable Communications Program to Ensure Sound Management and Timely Execution of $4.7 Billion Technology 

Opportunities Program, ARR-19583, p.3. 

8
  74 Fed. Reg. 33116 (July 9, 2009), and 75 Fed. Reg. 3805 (January 22, 2010). 

9
   74 Fed. Reg. 33109-33110 (July 9, 2009). 



                                                               12

U.S. Department of Commerce                                              Final Report ARR-19842-1 

Office of Inspector General                                                             April 2010 



                   Summary of Agency Comments and OIG Response
 
In responding to our draft report, the Assistant Secretary for Communications and Information
summarized the steps NTIA is taking to address the recommendations in the report. Where
appropriate, we modified this final report to incorporate NTIA’s comments on the draft report.
While we recognize and appreciate the inherent challenges that NTIA faced in the development
of BTOP, the agency still must address several matters in order to administer the program
successfully throughout the remainder of its life cycle. We are encouraged that NTIA has already
begun to focus on our recommendations, and we look forward to NTIA’s action plan that will
provide specific details on the corrective actions the bureau has taken and planned. NTIA
management should continue to focus its attention on the issues in the report.

 
 
 
 
 




                                               13

U.S. Department of Commerce                                                 Final Report ARR-19842-1 

Office of Inspector General                                                                April 2010 



                                            Glossary
 
Included below are definitions for some key terms included within the report. The terms are
defined in various BTOP program documents, including its July 2009 Notice of Funds
Availability and its January 2010 Notice of Funds Availability.

Broadband. Two-way data transmission with advertised speeds of at least 768 kilobits per
second (kbps) downstream and at least 200 kbps upstream to end users, or providing sufficient
capacity in a middle-mile project to support the provision of broadband service to end users.


Comprehensive Community Infrastructure. An infrastructure project that focuses primarily
on providing new or substantially upgraded connections to community anchor institutions.


Infrastructure projects. Includes last-mile and middle-mile projects that will fund projects to
deliver broadband access to unserved and underserved areas.


Last-mile project. Infrastructure project that has the predominant purpose of providing
broadband service to end users or end-user devices (including households, businesses,
community anchor institutions, public safety entities, and critical community facilities).


Middle-mile project. Broadband infrastructure project that does not predominantly provide
broadband service to end users or to end-user devices, and may include interoffice transport,
backhaul, Internet connectivity, or special access.


Public computer center. A place, including but not limited to community colleges, libraries,
schools, youth centers, employment service centers, Native American chapter houses,
community centers, senior centers, assistive technology centers for people with disabilities,
community health centers, and Neighborhood Network Centers in public housing developments,
that provides broadband access to the general public or a specific vulnerable population, such as
low-income, unemployed, aged, children, minorities, and people with disabilities.


Sustainable broadband adoption. Innovative projects that promote broadband demand,
including projects focused on providing broadband education, awareness, training, access,
equipment or support, particularly among vulnerable population groups where broadband
technology has traditionally been underutilized.


Unserved Area. A proposed funded service area, composed of one or more contiguous census
blocks, where at least 90 percent of households in the proposed funded service area lack access
to facilities-based, terrestrial broadband service, either fixed or mobile, at the minimum


                                                14

U.S. Department of Commerce                                                Final Report ARR-19842-1 

Office of Inspector General                                                               April 2010 



broadband transmission speed cited above. A household has access to broadband service if the
household can readily subscribe to the service upon request.


Underserved Area. A proposed funded service area composed of one or more contiguous
census blocks meeting certain criteria that measure the availability of broadband service, the rate
of broadband subscribership, or the level of advertised broadband speed. Separate criteria were
established for middle-mile and last-mile broadband infrastructure projects. For last-mile
projects to qualify, one of the following factors must be met: (1) no more than 50 percent of the
households in the proposed service area have access to facilities-based, terrestrial broadband
service at greater than the minimum broadband speed cited above; or (2) no fixed or mobile
broadband service provider advertises broadband transmissions speeds of at least 3 megabits per
second downstream in the proposed funded service area; or (3) the rate of broadband
subscription for the proposed service area is 40 percent of households or less. For middle-mile
projects to qualify, at least one interconnection point terminates in the proposed funded service
area that qualifies as unserved or underserved.


 




                                                15

U.S. Department of Commerce                                                Final Report ARR-19842-1 

Office of Inspector General                                                               April 2010 



                    Appendix A: Objectives, Scope, and Methodology

The American Recovery and Reinvestment Act of 2009 provided $16 million for Office of
Inspector General audits and oversight of Commerce’s Recovery Act activities. Under the
Recovery Act, inspectors general are expected to be proactive and focus on prevention.
Our work was performed in accordance with the Quality Standards for Inspections (rev. January
2005) issued by the President’s Council on Integrity and Efficiency and under authority of the IG
Act of 1978, as amended, and Department Organization Order 10-13 (dated August 31, 2006).
The objectives of our evaluation were to (1) assess how effectively NTIA is implementing
BTOP, including management controls, contractor oversight, and program office staffing; (2)
evaluate the proposal pre-award review measures that NTIA is taking to ensure an effective and
fair application and award process; and (3) evaluate the integrity and reliability of the on-line
application system. We performed our evaluation from September 2009 through March 2010 at
NTIA headquarters in Washington, D.C. The evaluation covered the pre-award process for
BTOP’s first round of grant awards initiated with NTIA’s July 2009 NOFA.
To assess how effectively NTIA is implementing BTOP, we
    •	 interviewed NTIA senior officials to obtain an understanding of the organizational
       structure of the program, the make-up of the program office, and the program office’s
       policies and procedures;
    •	 collected and reviewed organization charts, position descriptions, performance plans, and
       selected resumes of personnel assigned to BTOP;
    •	 met with the contracting officer at the Department of Interior’s National Business Center
       to understand the contracting process and review key contract documents between NTIA
       and BAH;
    •	 reviewed memorandums of understanding between NTIA and other federal organizations
       within and outside Commerce that were providing program and administrative support;
    •	 attended weekly NTIA all-hands BTOP meetings and a quarterly status meeting held with
       BAH;
    •	 reviewed the process for recruiting and training independent peer reviewers;
    •	 assessed the thoroughness of the due diligence process and the audit trail supporting
       NTIA’s decisions to make certain grant awards; and
    •	 conducted interviews and obtained documentation and evidence of key system
       development, information security, and other supporting information technology controls
       from NTIA, NTIS, and the vendor.

 




                                                16

U.S. Department of Commerce                                                                               Final Report ARR-19842-1 

Office of Inspector General                                                                                              April 2010 



                            Appendix B: Full Text of Agency’s Response


                                                                             fT'ED STATES DEPARTMENT OF
                                                                         U NrTED
                                                                             ITED                          DF COMMERCE
                                                                              Assisunt
                                                                              AMi&taont Secretary
                                                                         TlIe As&istan~
                                                                         The                        tor
                                                                                          Seerecary for
                                                                                                    fOl" Communications
                                                                              InformllCion
                                                                               InformHion
                                                                         and Information
                                                                         Washtngton.
                                                                         wastW1gcotl. D.C
                                                                         WiIshlngton. D.C. 20230

                                                                              AI'II
                                                                              APR       2ll1l
                                                                                        10D
                                                                                      1 201J
             Mr. Todd J.
             Mr. Todd J.l.inscr
                         Zinser
             Inspector
             Inspector General
             U..
              .S. Department
             U..  Department of Commen:e
                             ofCommercc
                                Commerce
             1401 Constitution A enue. N.W.
                               Avenue.  .W.
             Washington,
             Washington, DC 20230
             Washinglon

             Dear Mr. Zinser:

                     Thank you for thelhe opportunity
                                          oppol1unity 10 to comment      the Office of lnspe~tor
                                                            commenl on lhe             Inspector General
                                                                                                  General'ss Draft
             Report
             Repon No.                     titled /tffIA
                        o. ARR-19842-1 tilled     Ifl'IA Must ConJinue
                                                  lVTIA       Continu 10    Improw its
                                                                         to Improve                Mo~"'~nJ and
                                                                                     iu Program Management
             Pre·Award
             Pre-A'        Proassfor its Broadband
                      ard Processfor
             Pre-AlVord    Process/or                            ProgrOlfl. I app~iale
                                           Broadbond Grants Program.          appn:c:iate
                                                                              appreciate our ongoing collaboration,
             your praise ofour
                           of our program and irsilS                      ~ommendaJ.ions on Sleps
                                                 its evolution, and your recommendations          tep$ the
                                                                                                 steps me National
                                                                                                             ational
             Telecommunications and Information Administration (NTlA) should              takc to further
                                                                                   hould take
                                                                                  shoukllake      funhc:r enhance its
                                                                                                                   ilS
             internal
             intema1 controls
                       conlrols to         that broadband funds from the American Recovery and Reinvestment
                                10 ensure lhat
             Act
             ACI of2009 (Recovery
                            (Reco ery Act) arearc made available as efficienlly
                                                                     effLciently
                                                                     efficiently and fairly as possible. I assure you
             lhat we are taking
             that                                                            ~mmendations described in the
                           laking every appropriate action to address the recommendations                      lhe
             Report.
             Repol1.
             Repon.

                        lhe Report
                     As the         notes. Nl1A
                            Repon notes,   NTIA has confronted     nwnber of challcoges
                                                     confi'onled a number                     effct:tively
                                                                               challenges in effectively
             implementing the Broadband Technology
                                            Tct:hnology Oppo"uniti
                                                        Opportunities Program (STOP) consistcnt
                                                        Opponunilies                                     with lhe
                                                                                            consistent wilh    the
             Rct:overy Act.
             Recovery  Ac!. From our initial startup activities, including staffing a11 program office
                                                                                                office, developin
                                                                                                          developing  g
             grant program rules and regulations, procuring program support
                                                                       suppon   service."
                                                                                services, and coordinating gnm
                                                                       suppo" services.                              ts
                                                                                                                grants
                                        olher Department
             processing activities with other Depanment of ofCommerc:e
                                                             Commerce (DOC) agencies.
                                                                                  agencies, in little
                                                                                  agencies      lillie more than
                                                                                                Iinle         than aa
                                                                                                             man
             year we have processed a large volume of applications and have awarded over SI     $1   billion in
                                                                                                S I billion
             grants. We have achieved all of this despite being limited in our administtativc
                                                                                 administrative expenses
                                                                                                  cxpenses to thre
                                                                                                                 threee
             pereent of thc
             percent    the program's appropriation. This is half of what is typically allowed for thc the startup
                                                                                                       lhe stanup ofof
             a major program such as STOP.
                                       BTOP.

                                        challenges..
                                        challenges. NTIA's
                      Considering these challenges,  NTlA's achievements thus far have havc been significant.
             Whcn the first funding round is complctc,
             When                             complete. the agency Cltpcets
                                              complete,                expects to have made approximatcly
                                                                                              approximately $1.2
                        gnmts to expand
             billion in grants   cxpand broadband infrastructure,
                                                      infrastructure. invest in public computcr
                                                                                       computer centers,
                                                                                                 centers, and
                                                                                                          lind
             promote sustainable broadband adoption. These investments will help bridge the tct:hnological
                                                                                                    technological
             divide, boost economic growth,
                                      growth. create jobs.
                                                       jobs, and improve cducation
                                                                          education and health care across
                                                                                                      across thc
                                                                                                              lhe
                                                                                                              the
             country. For the second grant round,    the agcncy
                                             round,lhe    agency released its second Notice of
                                                                                             of fuocls
                                                                                                Funds Availability
                                                                                             off'unds
             (NOFA) on time, received
                                reccived over 800
                                              gOO applications,
                                                   applications. and remains on track to award
                                                                                            award all
                                                                                                  aU STOP
                                                                                                      BTOP grants
             by its statutory deadline of September 30,    2010.
                                                       30,2010.

                       Given the significant constraints and challenges
                                                               challcnges presented by the Recovery
                                                                                               Recovery Act.
                                                                                                          Act, NTIA
                                                                                                                NTIA
             has balanced its obligations to protect taxpayer funds and make grunts grants liS
                                                                                           as  expeditiously as
                                                                                           us eltpeditiously
             practicable.                    rcpeatedly to thc
             prac:ticable. 1I have testified repeatedly    lhe fact that I will nol
                                                           the                  not make bad     investments. and
                                                                                           bad investments.     and we
                                                                                                                     we
                      riltorous due diligence
             have 8Ia rigorous      diligcnce proc:ess           10 eliminate exccs.~ive
                                               process in place to            exces.<;ive C01;I1; and
                                                                              excessive c:olIt.,
                                                                                          COl;!S  and verify
                                                                                                      verify the
                                                                                                              the lon&-
                                                                                                                  long-
             tenn  sustainllbility OfprojeclS.
             tcnn sustainability
             term                  ofprojct:lS.
                                   of projects. I1am
                                                  am gratified thai
                                                                that your office has recogni7.cd
                                                                lhat                  recognized thethe rigor
                                                                                                        rigor of
                                                                                                               ofour
                                                                                                                  our




                                                                 17

U.S. Department of Commerce                                                                          Final Report ARR-19842-1 

Office of Inspector General                                                                                         April 2010 





             review process and has acknowledged that!hat we have worked to establish a consistent and fair
             process that meets statutory and regulatory
                                              regulatOf}' requirements.

                                                                            program. NTIA organized the
                     As a small bureau managing this one-time stimulus program,
             program office
                      offiee with a core staff to hllndle
                                                  handle govemment     functions and to manage our contractors,
                                                          government functions                         contractors.
             and leveraged
                 Ievenr.ged these staff resources with services from contracts
                                                                      contnlcts and interagency agreements.
                                                                         rcsourccs to meet its critical and time-
             This approach allowed the program to deploy sufficient resources
             sensitive needs. NTIA succcssfully
                                       successfully followed a similar model for the TV Converter Box Coupon
             Program and the
                           the: Public
                                Publie Safety Interoperable
                                              Interopttable Communications Program. We recognize your
             concerns about succession planning and redundant oversight of these contracts and agreements,
             and we are taking steps to address your concerns. Specifically:

                     1.
                     I. In response
                            rape.se to concerns
                                         ".~nu regarding        adequate stamng:
                                                   reprdingadequatc        stamnl: NTiANTIA has hired an well-
                        qualified Slafl'to handle core government functions
                                  stafflO haDdle                     functioas and 10to manage our contractors.
                                                                                                      contnlClOrs.
                        We have also taken steps to eliminate the potential risk of key staffing bottlenecks by
                        bolstering
                        bolslering internal and external resources.   Additionally, our primary contract with
                                                          resowces.. Additionally.
                                                                     contractor FTEs to assist
                        Booz Allen Hamilton provides about 200 conlnK:IOf                         the core
                                                                                           assiSlthe
                        government team. As you yOIl know, the U.S. Department of the Interior providcs
                                                                                                    provides
                        comprehensive acquisition suppon                                       contracts <lffice
                                                                 STOP, serving as NTIA's COf'lIBCts
                                                     support to STOP.                                    office for
                        the: Booz Allen Hamilton contract. Under this agreement. Interior has appropriately
                        the
                        executed contract
                                  contntct modifications to ensure that the    contract best meets the program's
                                                                          the: oontraet
                        evolving needs and complies with Federal Acquisition Regulations. Prior to the
                        issuance oftile
                        issuan<:e of!he Booz Allen contract
                                                      centrac! and all modifications,   Interior engaged in a
                                                                       modificstions.lnteri<lf
                        rigorous clearance   process, including review by Interior management.
                                  elean.nce process.                                  management, legal offices
                        and by the Recovery                                        of Department of Commerce
                                    Reoovery Act Board. The additional check ofDepanment
                        Office of General Counsel legal review of the contract modification you note    nute in your
                        Report was performed
                        Repon                                                     standard acquisition
                                     perfonned upon your request outside of a slalldard
                        management c1Cll11lnCe
                                      clearance process.

                    2. In response to concerns
                                        com:eros regardiDg
                                                   regarding documCbtalioo
                                                              documentation of program policies and roles:
                       NTIA has assembled a series of  offocused
                                                          focused documents and directives to guide staffand
                                                                   grants, rather thaJ1
                       contractors with the review and award of grants.            than laking a more fonnal and
                       structured approach to minutely documenting pre-award procedures and
                       responsibilities. Because of the temporary nature of the program and the need nee<lto
                                                                                                           to
                                                                grants, NTiA
                       move expeditiously with the award of grants.     NTIA believes this more focused
                                                                      pre.award phase of the program.
                       approach is the best course of action for the pre-awBfd
                       However, I appreciate the concerns expressed in the Repon
                       However.                                                 Report and can assure you that
                                                                                documentation to approprialely
                       the agency has been working toward comprehensive documentPlion             appropriately
                                                                                post-award phase of the program,
                       define roles, responsibilities, and procedures for the post·award
                       during which we plan to oversee over S45 $4.5 billion in grant funds for several yeaf'S.
                                                                                                        years.

                    3. In respoDse
                    3,     response to
                                     10 concerns regardiDg
                                                   regarding documcntalion
                                                              documentalion of legal issues aodand guid.nce:
                                                                                                   guidance:
                       The Commerce Department's Office of    ofOeneral
                                                                General Counsel has worked closely with
                                                                                     regularly eonsults
                       NTIA and provided timely legal review and advice. NTIA reaularly        consults with
                       legal counsel on important
                       lesal             impor1ant issues and, depending on need and urgency,
                                                                                        urgcncy, this
                                                                                                 Ihis guidance
                                                         iocluding verbal, e-mail.
                       is received in a variety of fonns including         e-mail, and formal
                                                                                       fonnal written
                                                                                               wrillen opinions.


                                                               2




                                                                                                                                
 
 



                                                               18

U.S. Department of Commerce                                                                            Final Report ARR-19842-1 

Office of Inspector General                                                                                           April 2010 





                        With
                        With respect
                              respect to
                                       to the Report's discussion
                                                        discussion of   NTIA's analysis
                                                                     ofNTIA's     analysis of
                                                                                            of potential
                                                                                                polential Anti·
                                                                                                          Anti-
                        Deficiency
                        Deficiency Act implications
                                          implications of   our expert
                                                        ofour   expert reviewer
                                                                        reviewer process, NTIA sought and   and
                        obtained
                        obtained legal
                                  legal counsel
                                         counsel from        Office of
                                                  from the Office   of General Counsel,
                                                                                 Counsel, Federal
                                                                                             Federal Assistance
                                                                                                      AssiSWlCe Law
                                 prior to the use
                        Division prior         use of
                                                    of volunteer
                                                       volunteer application
                                                                   applicalion reviewers.
                                                                                reviewers. Separately,
                                                                                              Separalcly, after
                        examining
                        examining the events
                                         events that
                                                thaI raised
                                                     raised concerns
                                                             concerns by tne
                                                                           the OIG.
                                                                               010. the   NTIA Chief Financial
                                                                                      the NTiA
                        Officer concluded that NTIA
                                                  NllA acted
                                                         acted properly
                                                                properly in following
                                                                             following Department Administrative
                                                                                                        Administrative
                        Order
                        Order 202-311 guidance on volunteer        service with respcctto
                                                        volunleer service         respcc::llo its responsibilities for
                        authorizing the              wortr. and for ensuring
                                     the volunteer work             ensuring that
                                                                              thaI potential volunteers
                                                                                                volunleers agreed to a
                        waiver of compensation,
                                   compensation.. and that
                                                         lhal no violation
                                                                  violalion of the Anti-Deficiency Act occurred.
                                                                            oflhe                           occurred..
                        NTlA will continue to coordinate with the Office of
                        NTIA                                                        General Counsel and seek advice
                                                                                ofGeneml
                        as necessary
                           nooessary in the implementation and management
                                                                     management of     the program.
                                                                                    oflhe   progrvn_

                       fa resJl&Dse
                    4. 10  raJHlDK to recommendations
                                          I'ftOmmtadatioa.s to implemenllessons
                                                                   a..pltmtatltsSODJ learned
                                                                                       lnnatd from tbe   tbt tirst
                                                                                                              fint
                       funding    roundd :IIppllc:IItion
                       (uDdi.D.& ro••     application review
                                                         ~iew pro«ss:
                                                                 prwa.s: NTIA
                                                                            NllA has taken action to 10 ameliorate
                                                                                                         amelionllte
                       the Round One delays identified
                                                  idenlified in your Report by malting
                                                                                 making process improvements that
                       will lead to10 a more expeditious merit review in Round Two. Fim,    First, we have reduced
                                      of expert reviewers required to evaluate
                       the number ofexpert                               evaluale an application from at lcass:
                                                                                                            least three
                       to at least
                             lcass: two to make the process as efficient as possible. We have also swilched
                                                                                                          switched
                       from a volunteer model to    10 a paid-reviewer model in order to manage the schedule
                       more effeclively
                              effectively and minimize the possibility of a delay due d~ to10 the initial review of
                       applications.

                    S. To addreu    concerns regardiag
                           addnss coacenu     regArding the
                                                         tbe llpplication
                                                             applicaUoD intakc
                                                                          iDtake system: NTIANTJA has
                       implemented a number of important enhancements 10    to ensure that  the Round Two
                                                                                      lhallhe
                       online application
                              applicalion system would be ready 10to accept
                                                                     accepl and process applications. We
                                       application, reduced the number of required attachments, eliminated
                       streamlined the application.
                                 NTIA-RUS application, and increased system capacity. The online
                       the joint NTlA-RUS
                                   ponal underwent substantial testing
                       application portal                                                 to mitigate problems
                                                                lesling and verification 10
                       associated with congestion on the system. As a result, Ihe
                                                                                the online system perfonned
                                                                                                   performed as
                       planned over the last few weeks and successfully allowed Round Two applicants 10    to
                       submit their proposals without any significant performance issues.

                    1I look forward to continuing to
                                                  10 work
                                                     woric: with
                                                            wilh you as
                                                                     lIS NTlA
                                                                         NTIA implements Ihis
                                                                                            this importanl
                                                                                                 important
             program to expand broadband capabilities
                                            capabililies in the United States, create
                                                                               creale jobs, and lay a new
             foundalion for economic growth in America. IfNTIA may be of further assistance,
             foundation                                                                  IISsistance. please
             contact Milton Brown, NTIA's Liaison 10  to the Office of Inspector General, at (202) 482-1853.


                                                            Sincerely,
                                                            Sincerely.




                                                                )3




                                                               19

